HHS/OIG, Audit - "Review of Oregon's Medicaid Payments for School-Based Health Services Direct Care in State Fiscal Year 2000," (A-10-01-00006)
Department
of Health and Human Services
"Review of Oregon's Medicaid Payments for School-Based Health Services
Direct Care in State Fiscal Year 2000," (A-10-01-00006)
August 21, 2002
Complete Text of Report is available in PDF format
(1.64 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the
medical assistance costs claimed by the Oregon State Department of Human Services
(Oregon) for the school-based health services direct care program (Program)
were allowable and adequately supported.  We determined that Oregon:
(1) claimed Program expenditures of three educational providers that were unallowable
for federal financial participation and (2) established reimbursement rates
for group therapies, screenings, and contracted consulting services and rate
increases that were not developed in accordance with federal regulations.
Based on a statistical sample, we estimated the errors for the three sampled
educational providers to be at least $277,688 ($166,671 federal share).
We recommended procedural corrections and a financial adjustment totaling $166,671.
Oregon concurred with our findings and recommendations.